      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




March 15, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Coastal Plain Area
               Economic Opportunity Authority, Inc. (A-04-09-03528)


Attached, for your information, is an advance copy of our final report on Head Start health and
safety standards at Coastal Plain Area Economic Opportunity Authority, Inc. (the Grantee). We
will issue this report to the Grantee within 5 business days. The Administration for Children and
Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-03528.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, S.W., Suite 3T41
                                                                          Atlanta, GA 30303




March 22, 2010

Report Number: A-04-09-03528

Ms. Patricia Smith
Executive Director
Coastal Plain Area Economic Opportunity Authority, Inc.
2601 Bemiss Road, Suite L
Valdosta, GA 31602

Dear Ms. Smith:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at Coastal
Plain Area Economic Opportunity Authority, Inc. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
John Drake, Audit Manager, at (404) 562-7755 or through email at John.Drake@oig.hhs.gov.
Please refer to report number A-04-09-03528 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia Smith


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
61 Forsyth Street, Suite 4M60
Atlanta, GA 30303
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF HEAD START
    HEALTH AND SAFETY
STANDARDS AT COASTAL PLAIN
AREA ECONOMIC OPPORTUNITY
      AUTHORITY, INC.




                    Daniel R. Levinson
                     Inspector General

                       March 2010
                      A-04-09-03528
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Coastal Plain Area Economic Opportunity Authority, Inc. (the Grantee), provides early learning
services to children aged 3 to 5 years and their families through a variety of programs at 13
facilities in the 10 counties of the Coastal Plain area of Georgia. For program year April 1, 2008,
through March 31, 2009, OHS awarded $6.32 million in Federal Head Start funds to the Grantee
to provide services to 912 children. On July 1, 2009, the Grantee also received $459,675 in
Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, 10 of the Grantee’s 12 childcare facilities that we
reviewed did not meet all Federal Head Start and State regulations on protecting children from
unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing procedures
to ensure that it complied with Federal and State health and safety regulations. The Grantee’s
failure to consistently comply with these regulations jeopardized the health and safety of children
in its care.

RECOMMENDATION

We recommend that the Grantee consistently follow its existing procedures to ensure that all
necessary repairs are addressed in a timely manner and that all unsafe materials and equipment
are stored in locked areas out of the reach of children.

GRANTEE COMMENTS

In its written comments on our draft report, the Grantee described its actions to address the
deficiencies that we identified. The Grantee’s comments are included in their entirety as
Appendix B.



                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program...........................................................................1
              Federal and State Regulations for Head Start Grantees.................................1
              Coastal Plain Area Economic Opportunity Authority, Inc. . .........................1
              Office of Inspector General Audits................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          MATERIAL AND EQUIPMENT SAFETY .............................................................3
              Federal and State Regulations........................................................................3
              Grantee’s Compliance With Material and Equipment Safety
                Regulations ................................................................................................4

          INCONSISTENTLY FOLLOWED PROCEDURES................................................7

          RECOMMENDATION ............................................................................................7

          GRANTEE COMMENTS .........................................................................................7

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              REGULATIONS

          B: GRANTEE COMMENTS




                                                                    ii
                                                INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, and safety of all Head Start facilities. The regulations also
specify that facilities used by Head Start grantees for regularly scheduled, center-based activities
must comply with State and local licensing regulations. Alternatively, if State and local
licensing standards are less stringent than the Head Start regulations or if no State licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

Pursuant to Georgia law and code (Official Code of Georgia Annotated (OCGA) §§ 20-1A-2 and
20-1A-4) and Georgia Rules and Regulations, chapter 591-1-1-.01, only childcare facilities that
charge a fee are required to be licensed. However, voluntarily licensed facilities must follow the
provisions of the State regulations, as enforced by Bright From the Start: Georgia Department of
Early Care and Learning. A grantee may have some Head Start facilities that are licensed and
other facilities that are not licensed. Of the 13 Head Start centers operated by Coastal Plain Area
Economic Opportunity Authority, Inc. (the Grantee), 11 were licensed. 1

Coastal Plain Area Economic Opportunity Authority, Inc.

The Grantee is a private, nonprofit agency, which provides services to address the needs of low-
income people through job training, education, child daycare, and other programs. It provides
1
    The Hahira and Irwin Head Start centers were not licensed.


                                                           1
early learning services to children aged 3 to 5 years and their families through a variety of
programs at 13 facilities in the 10 counties of the Coastal Plain area of Georgia. The Grantee has
received Head Start funding since 1966. For program year April 1, 2008, through March 31,
2009, OHS awarded approximately $6.32 million in Federal Head Start funds to the Grantee to
provide services to 912 children. On July 1, 2009, the Grantee also received $459,675 in
Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and 12 of its 13 facilities as of August
2009. 2 To gain an understanding of the Grantee’s operations, we conducted a limited review of
internal controls as they related to our audit objective.

We performed our fieldwork from August 24 through August 28, 2009, at the Grantee’s
administrative office in Valdosta, Georgia, and at 12 of its childcare facilities in the 10 counties
of the Coastal Plain area of Georgia.

Methodology

To accomplish our objective, we:

       selected the Grantee based on prior risk analyses and discussions with ACF officials;

       reviewed Federal and State laws and regulations related to Federal grant awards and the
        Head Start program;

       interviewed the Grantee’s executive director, Head Start director, finance director, and
        transportation manager;


2
 We excluded the Irwin Head Start center from review because it was located in a public school. Public schools are
subject to oversight by the State School Superintendent (OCGA § 20-2-35) and the State Department of Audits and
Accounts (OCGA § 50-6-24).



                                                        2
          reviewed the Grantee’s files on all 226 current Head Start employees; 3

          reviewed the Grantee’s licenses and documentation of fire inspections;

          visited 12 of the Grantee’s childcare facilities; and

          discussed our preliminary findings with the Grantee.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATION

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, 10 of the Grantee’s 12 childcare facilities that we
reviewed did not meet all Federal Head Start and State regulations on protecting children from
unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing procedures
to ensure that it complied with Federal and State health and safety regulations. The Grantee’s
failure to consistently comply with these regulations jeopardized the health and safety of children
in its care.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities. The regulations (45 CFR
§ 1304.53(a)) require that:

          playground equipment and surfaces be maintained to minimize the possibility of injury to
           children;

          electrical outlets accessible to children prevent shock through the use of child-resistant
           covers, child-protection outlets, or safety plugs;

          indoor and outdoor premises be kept free from hazardous conditions; and

          heating and cooling systems be insulated to protect children.


3
    The 226 current employees were partially or fully funded by the Head Start grant award.


                                                           3
Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).

Georgia Rules and Regulations, chapter 591-1-1, require, among other things, that:

      centers be kept clean, free of debris, and in good repair;

      unused electrical outlets have protective caps;

      heating and cooling equipment be protected to prevent access by children;

      potentially hazardous equipment, materials, and supplies be stored in a locked area;

      premises be free from hazardous plants and shrubs;

      playground equipment be regularly maintained to be free from rust and splinters;

      playgrounds be kept clean and free from litter and hazards;

      outside storage areas be locked or separated from children by a barrier; and

      playground fencing material not present a hazard to children.

Further, Georgia Rules and Regulations, chapter 560-10-16-.04, require vehicle owners to affix
renewal decals to license plates in the space provided.

Grantee’s Compliance With Material and Equipment Safety Regulations

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment. We noted deficiencies
at 10 of the 12 facilities that we reviewed and reported the deficiencies to the facility managers
on duty during our visits.

Hallmark Heights (State licensed, visited August 24, 2009)

      Grime and filth had accumulated on a classroom floor around the boys’ bathroom door.

Hahira (not State licensed, visited August 25, 2009)

      Frayed carpet covered wood at the top of a playground slide (Appendix A, Photograph 1).




                                                 4
      An electrical outlet in a children’s bathroom lacked a faceplate and protective caps
       (Appendix A, Photograph 2).

      The door in the therapy room leading to the ventilation system was unlocked.

Nashville (State licensed, visited August 25, 2009)

       The playground fence was not securely fastened to a fencepost, making it possible for a
        child to become trapped or entangled between the fence and the post.

Cook (State licensed, visited August 25, 2009)

      A bottle of craft paint, which was not labeled as nontoxic, was stored in an unlocked
       cabinet accessible to children.

      Tree branches were hanging close to some playground equipment.

      A playground fencepost had an exposed concrete base with sharp edges (Appendix A,
       Photograph 3).

      A gutter downspout directed toward the playground had sharp, jagged edges.

      Two sheds on the playground containing potentially hazardous items were unlocked
       (Appendix A, Photograph 4).

      A chain link on a fence surrounding an air conditioning unit was loose and could cut or
       scratch a child.

R. L. Mack (State licensed, visited August 26, 2009)

      Adult scissors and ink pads were stored in an unlocked cabinet accessible to children.
       The ink pads were not labeled as nontoxic (Appendix A, Photograph 5).

      A power strip on a computer desk contained three outlets without protective caps.

      A can of Lysol spray was stored in an unlocked cabinet accessible to children.

      A window had sharp metal trim that was accessible to children on the playground.

      A gutter downspout directed toward the playground had sharp, jagged edges.

      A playground fencepost had an exposed concrete base with sharp edges.

      A food warmer was stored in an unlocked storage area near two classrooms (Appendix A,
       Photograph 6).



                                                 5
      A damaged fence contained sharp pieces of chain link that pointed toward the
       playground.

      A fence surrounding an air conditioning unit was unlocked.

Ben Hill (State licensed, visited August 26, 2009)

      The bus that the facility used to transport children had a vehicle registration decal that
       expired in February 2009. At the time of our visit, facility officials could not find a
       current decal.

Turner (State licensed, visited August 26, 2009)

      A bag of kitchen utensils (including a pizza cutter) was stored in an unlocked cabinet
       accessible to children (Appendix A, Photograph 7).

      A window had sharp metal trim that was accessible to children on the playground.

      A classroom facing the playground had a broken window (Appendix A, Photograph 8).

      Debris was around the playground fence, and a gap between the fence and the ground
       could trap or entangle a child or could allow a child to exit the playground area
       (Appendix A, Photograph 9).

      A damaged fence contained loose chain links that pointed toward the playground.

Lowndes 1 (State licensed, visited August 27, 2009)

      Four electrical outlets in a classroom were not covered with protective caps.

      A piece of plastic wallboard in a children’s bathroom was loose and protruding.

      A sinkhole had developed in the asphalt under a gutter downspout on the playground
       (Appendix A, Photograph 10).

      Loose nonelectrical wire was hanging from a light pole behind the administrative
       building and within reach of children.

      A section of playground fencing was loose.

      A shed on the playground was unlocked.

B. W. Lester (State licensed, visited August 27, 2009)

      Two electrical outlets in the children’s therapy room were not covered with protective
       caps.


                                                   6
      A window air conditioner adjacent to the walkway to the playground was partially
       supported by an unsecured board (Appendix A, Photograph 11).

      A food warmer was stored in an unlocked kitchen near two classrooms.

Brooks (State licensed, visited August 28, 2009)

      The corner of a windowsill in a classroom contained dead insects.

      The paint on a playground tic-tac-toe game was peeling, thus allowing the equipment to
       rust. The State had cited this potential hazard in an April 2009 facility inspection.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the health and safety of children in its care.

Grantee staff took immediate steps to address some of our concerns during our visits.

INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not consistently follow its existing procedures
to ensure that it complied with Federal and State health and safety regulations.

RECOMMENDATION

We recommend that the Grantee consistently follow its existing procedures to ensure that all
necessary repairs are addressed in a timely manner and that all unsafe materials and equipment
are stored in locked areas out of the reach of children.

GRANTEE COMMENTS

In its written comments on our draft report, the Grantee described its actions to address the
deficiencies that we identified. The Grantee’s comments are included in their entirety as
Appendix B.




                                                   7
APPENDIXES
                                                                                             Page 1 of 6


  APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                       SAFETY REGULATIONS




Photograph 1 – Taken at the Hahira Head Start center on 8/25/2009 showing frayed carpet covering wood at
                                     the top of a playground slide.




  Photograph 2 – Taken at the Hahira Head Start center on 8/25/2009 showing an outlet in the children’s
                            bathroom without a faceplate or protective caps.
                                                                                            Page 2 of 6




                                                                                          `
Photograph 3 – Taken at the Cook Head Start center on 8/25/2009 showing sharp edges on the concrete base
                                      of a playground fencepost.




    Photograph 4 – Taken at the Cook Head Start center on 8/25/2009 showing an unlocked shed on the
       playground. The shed was used to store potentially hazardous items, such as old equipment.
                                                                                             Page 3 of 6




               Photograph 5 – Taken at the R. L. Mack Head Start center on 8/26/2009
showing adult scissors and ink pads, which were not labeled as nontoxic, stored in an unlocked cabinet.




Photograph 6 – Taken at the R. L. Mack Head Start center on 8/26/2009 showing a food warmer in an
                            unlocked storage area near two classrooms.
                                                                                            Page 4 of 6




Photograph 7 – Taken at the Turner County Head Start center on 8/26/2009 showing a pizza cutter and other
                  cooking utensils stored in an unlocked cabinet accessible to children.




  Photograph 8 – Taken at the Turner County Head Start center on 8/26/2009 showing a broken classroom
                                     window facing the playground.
                                                                                                  Page 5 of 6




Photograph 9 – Taken at the Turner County Head Start center on 8/26/2009 showing debris around a playground
                                fence and a gap between the fence and the ground.




      Photograph 10 – Taken at the Lowndes 1 Head Start center on 8/27/2009 showing a sinkhole in the asphalt
                                   under a gutter downspout on the playground.
                                                                                                Page 6 of 6




Photograph 11 – Taken at the B. W. Lester Head Start center on 8/27/2009 showing a window air conditioner
             partially supported by an unsecured board adjacent to the walkway to the playground.
                                                                                     Page 1 of 6


                         APPENDIX B: GRANTEE COMMENTS

                                 January 21, 2010



Mr. Peter J. Barbera
Regional Inspector General
for Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, Georgia 30303

Dear Mr. Barbera:

The following are responses to the findings from the review of the Head Start Program for
Health and Safety Standards, conducted August 24 - 28, 2009.

Grantee Compliance with Material and Equipment Safety Regulations

   Hallmark Heights

   Finding: Grime and filth had accumulated on a classroom floor around the boy’s bathroom
   door.

   Action Taken: Floor has been cleaned and staff was given training on Housekeeping
   Practices.

   Hahira

   Finding: Frayed carpet covered wood at top of playground slide.

   Action Taken: Outdoor carpet was replaced on playground slide.

   Finding: An electrical outlet in a children’s bathroom lacked a faceplate and protective
   caps.

   Action Taken: Outlet was replaced with a Tamper resistant outlet. Staff was instructed to
   follow policy and submit work orders immediately.

   Finding: The door in the therapy room leading to ventilation system was unlocked.

   Action Taken: New lock has been installed. Staff has been informed that door is to remain
   locked at all times.
                                                                                  Page 2 of 6


Nashville

Finding: The playground fence was not securely fastened to the fence post, making it
possible for a child to become trapped or entangled between the fence and the post.

Action Taken: The playground fence has been repaired.

Cook

Finding: A bottle of craft paint, which was not labeled as nontoxic, was stored in an
unlocked cabinet accessible to children.

Action Taken: Paint was removed and secured in locked cabinet. Classroom staff was
instructed to remove all craft materials and secure in a locked area, away from children,
when not in use.

Finding: Tree branches were hanging close to some playground equipment.

Action Taken: Trees were pruned and lawn care service has been instructed to monitor
growth.

Finding: A playground fence post had an exposed concrete base with sharp edges.

Action Taken: Concrete at base of fence has been covered. Staff has been instructed during
Daily Playground Inspection to check and report such items to the Facilities Department.

Finding: A gutter downspout directed toward the playground had sharp, jagged edges.

Action Taken: Plastic caps have been placed on all downspouts.

Finding: Two sheds on the playground containing potentially hazardous items was
unlocked.

Action Taken: Staff has been instructed that storage building doors are to remain locked at
all times.

Finding: A chain link on a fence surrounding an air conditioning unit was loose and could
cut or scratch a child.

Action Taken: Fence has been repaired. Staff has been advised to check all fence areas to
prevent future occurrence.

R.L Mack

Finding: Adult scissors and ink pads were stored in an unlocked cabinet accessible to
children. The ink pads were not labeled as nontoxic.
                                                                                 Page 3 of 6


Action Taken: Staff has been informed to follow policy regarding storage of materials and
equipment in classroom.

Finding: A power strip on a computer desk contained three outlets without protective caps.

Action Taken: Power strip was mounted in an area inaccessible to children and caps were
installed in all open outlets.

Finding: A can of Lysol spray was stored in an unlocked cabinet accessible to children.

Action Taken: Product has been removed and placed in overhead locked cabinet. Staff has
been instructed to follow established policy for proper storage.

Finding: A window had sharp metal trim that was accessible to children on the playground.

Action Taken: Window edging has been repaired to eliminate sharp edge.

Finding: A gutter downspout directed toward the playground had sharp jagged edges.

Action Taken: Installed plastic caps on all gutters.

Finding: A playground fencepost had an exposed concrete base with sharp edges.

Action Taken: Concrete at base of fence has been covered. Staff has been instructed during
Daily Playground Inspection check to be reported to Facilities Department.

Finding: A food warmer was stored in an unlocked storage area near two classrooms.

Action Taken: Staff has been instructed that storage area doors are to remain locked at all
times in accordance with established policies and procedures.

Finding: A damaged fence contained sharp pieces of chain link that pointed toward the
playground.

Action Taken: Fence has been repaired. Staff has been instructed that during Daily
Playground Inspection items such as this are to be reported to Facilities Department
immediately.

Finding: A fence surrounding an air conditioning was unlocked.

Action Taken: Gate to air conditioning unit will be locked at all times.
                                                                                    Page 4 of 6


Ben Hill

Finding: The bus that the facility used to transport children had a vehicle registration decal
that expired in February 2009. At the time of our visit, facility official could not find a
current decal.

Action Taken: Current vehicle inspection decal has been installed.

Turner

Finding: A bag of kitchen utensils (including a pizza cutter) was stored in an unlocked
cabinet accessible to children.

Action Taken: Items have been removed from lower cabinet and placed in overhead
locked cabinet. Staff has been instructed to remove all activity materials and secure in a
locked area away from children when not being used.

Finding: A window had sharp metal trim that was accessible to children on the playground.

Action Taken: Window edging has been repaired to eliminate sharp edge.

Finding: A classroom facing the playground had a broken window.

Action Taken: Window has been replaced. Staff has been instructed during Daily building
checks items needing repaired, or replaced are to be reported immediately to Facilities
Department.

Finding: Debris was around the outside of playground fence, and a gap between fence and
ground could trap or entangle a child or could allow a child to exit the playground area.

Action Taken: Playground fence was repaired and debris from adjoining yards around fence
was removed. Staff was instructed that during Daily Playground Inspection checks items
such as this are to be reported to Facilities Department.

Finding: A damaged fence contained loose chain links that pointed toward the playground.

Action Taken: Playground fence was repaired. Staff was instructed that during Daily
Playground Inspection items such as this are to be reported immediately to the Facilities
Department.

Lowndes I

Finding: Four electrical outlets in classrooms were not covered with protective covers.

Action Taken: All electrical outlets have been covered with tamper free protective covers.
                                                                                   Page 5 of 6


Finding: A piece of plastic wall board in children’s bathroom was loose and protruding.

Action Taken: The wall board has been repaired. Staff has been instructed that during Daily
Building Inspection, items needing repair are to be reported immediately to Facilities
Department.

Finding: A sinkhole had developed in the asphalt under the gutter downspout on the
playground.

Action Taken: Sinkhole was filled and downspout water flow redirected. Staff was
instructed that during Daily Playground Inspection, items such as these are to be reported to
Facilities Department.

Finding: Loose nonelectrical wire was hanging from light pole behind the administrative
building and within reach of children.

Action Taken: Telephone wire was reattached to utility pole and is out of reach of children.

Finding: A section of playground fence was loose.

Action Taken: Fence has been repaired. Staff was instructed that during Daily Playground
Inspection items such as this are to be reported to Facilities Department.

Finding: A shed on the playground was unlocked.

Action Taken: Staff has been instructed to ensure that all storage areas remain locked.

B.W. Lester

Finding: Two electrical outlets in the children’s therapy room were not covered with
protective caps.

Action Taken: Electrical outlets have been replaced with tamper free protective covers.

Finding: A window air conditioner adjacent to the walkway to the playground was partially
supported by an unsecured board.

Action Taken: The board being used to stabilize air unit has been secured and area has been
made inaccessible to children.

Finding: A food warmer was stored in an unlocked kitchen near two classrooms.

Action Taken: Staff was instructed that kitchen door is to remain locked while children are
on the premises.
                                                                                    Page 6 of 6


Brooks

Finding: The corner of the windowsill in a classroom contained dead insects.

Action Taken: Staff has been instructed to use Cleaning Checklist daily to ensure
classrooms are clean and free of insects.

Finding: The paint on a playground tic-tac-toe game was peeling, thus allowing the
equipment to rust.

Action Taken: Equipment was sanded and spot painted. Staff was instructed that
during Daily Playground Inspection, items such as these should be reported immediately to
the Facilities Department.

To ensure compliance with established program policies and procedures, Health and Safety
will be an Agenda item for all future staff training.

If you have any questions or need clarification of responses, please contact me at 229-244-
7860 or through email at psmith@coastalplain.org.

                                                 Sincerely,

                                                 COASTAL PLAIN
                                                 AREA EOA, INC.

                                                 Patricia Smith
                                                 Executive Director
